Supreme Court, U.S.
FILED

@39 4

No.

NOV 0 3 2020
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

MICHAEL HAGAR - PETITIONER
vs.
UNITED STATES OF AMERICA - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI:TO

UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Michael Hagar, Pro se
Reg. 64124060
FCC Beaumant Low
P.O. Box 26020
Beaumont, TX 77720-6020

ORIGINAL

RECEIVED
NOV 1 6 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
QUESTION 1
Do the Article 3, Section 2, Clause 3 provision,
the "trial shall be held in the State where the
said Crime shall have been committed" and the
Sixth Amendment provision, the trial "in the
State and district wherein the crime shall have
been committed, which district shall have been
previously ascertained by law," establishia;:,'--;
tribunal that is part of the government structure
and limit the district court's constitutional
judicial power, Article 3, Section 2, Clause 1,
to hear a criminal case?
QUESTION 2
Does 18 U.S.C. § 3232 limit the statutory judicial
power, 18 U.S.C. § 3231, of the district court
to hear a case?
QUESTION 3
Is 18 U.S.C. § 3237 a grant of jurisdiction, by
Congress, to a district court, giving the judicial
power to hear a case, for an offense committed
within the district?
QUESTION 4
Can a defendant raise the issue of improper
venue in a motion to dismiss for a violation
of the Speedy Trial Act and preserve the issue
of improper venue for review on appeal?
QUESTION 5
Should the Appeal§r Court have indulge a
reasonable presumption against waiver, related
to the issue of improper venue, and not presume
acquiescence in the loss of a fundamental right?
QUESTION 6
Did the Government violate Due Process by
providing inaccurate information in the venue
argument, and did the Appeal he Court err when
it reached it 3: decision based on the inaccurate
information, when the correct information was in
the "Statement of the Case" of the same brief
by the Government?
QUESTION 7
Did the Appeals^ Court err when it relied on
the "substantial contacts test" instead of
"essential conduct elements" and the erroneous
view of the statute 18 U.S.C. § 115(c)(2)
related to the meaning of an immediate family
member, for finding that venue was proper in
ii

the Northern District of Ohio?
QUESTION 8
Does the Speedy Trial Act confine the discrebidnn
of the district court as the Act mandates
dismissal of the indictment upon violation of
precise time limits? And should the Appeals
Court indulge a reasonable presumption against
waiver?
QUESTION 9
Did the Appeals Court err, when it did not
consider the second Motion to Dismiss; First,
when it relied on New Hampshire.v Maine,
532 U.S. 742, 749-51, (2001), to conclude that
the argument was contradictory in the Appeliatit
proceeding from the argument in the District
Court? Second, when the Appeals Court claimed
the Petitioner requested a continuance after
the Superseding Indictment was filed?
QUESTION 10
Does the Speedy Trial Act require a defendant
to articulate the period of time' that: isr'.r.d
uhexcluded at the time the motion is filed?
QUESTION 11
Did the Appeals Court err when it based its
decision not to grant the Rule 29 Motion for
Judgment of Acquittal, for improper service of
the Temporary Protective Order, on 18 U.S.C. §
2266(5), which defines a protective order,
instead of 18 U.S.C. § 2265, which provides
jurisdiction to other States to enforce a
protective order from another State?

iii

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

iv

TABLE OF CONTENTS
QUESTIONS PRESENTED

ii-iii

LIST OF PARTIES

iv

TABLE OF CONTENTS

v

TABLE OF AUTHORITIES CITED

vi-vil

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED

3-4

STATEMENT OF THE CASE

5-7

REASONS FOR GRANTING THE PETITION
CONCLUSION

8-20
21

INDEX TO APPENDICES
APPENDIX A

APPEAL NUMBER 19-3591
United States v Michael Hagar

APPENDIX B

DEFENDANT'S MOTION TO DISMISS

APPENDIX C

GOVERNMENT'S RESPONSE IN
OPPOSITION TO MOTION TO DISMISS

APPENDIX D

RELEVANT PART OF CONSTITUTIONAL
PROVISIONS AND STATUTES

v

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Barker v Wingo, 407 U.S. 514, (1972)......................................

12

Griff v Griff, 327 U.S. 220, (1946)........................................

20

New Hampshire v Maine, 532 U.S. 742, (2001).................... .

17

Pennoyer v Neff, 95 U.S 714, (1878)........................................

19-20

United States v Anderson, 328 U.S. 699, (1946)..................

9

United States v Arnold, 113 F.3d 1146, (10th Cir., 1997)

16

United States v Auernheimer 748 F.3d 525 (3rd Cir., 2014)... 15-16
United States v Dandy, 998 F.2d 1344, (6th Cir., 1993)

11,12

United States v Hall, 181 F.3d 1057, (9th Cir., 1999).

16

United States v Houston, 683 F. Appx. 434, (6th Cir., 2017) ... 14
United States v Jefferies 692 F.3d 473, (6th Cir., 2012)

14

United States v Johnson, 323 U.S. 273, (1944)....................

8,9,10

United States v Lombardo, 241 U.S. 73, (1916)....................

8

United States v Obak, 884 F.3d 934, (9th Cir., 2018)....

8

United States v Olano, 507 U.S. 725, (1993)........................

13

United States

v Rivera, 388 F.2d 545, (2nd Cir., 1968)..

12

United States

v Rodriquez-Moreno, 526 U.S. 275, (1999)..

14

United States

v Taylor, 487 U.S. 326, (1988)........................

16

States, 547 U.S. 489, (2006)........................

18,19

Zedner v United
STATUTES

18 U.S.C. § 115(c)(2).

14-15

18 U.S.C. § 875(c)

5

18 U.S.C. § 2261(b)...

5

18 U.S.C. § 2261(A)(2)

5

vi

STATUTES

PAGE NUMBER

18 U.S.G. § 2265..........

.19,20

18 U.S.C. § 2266(5). . .

5,19

18 U.S.C. § 3161(c)(1)

18

18 U.S.C. § 3161(h)...

.. 18,19

18 U.S.C. § 3162(a)(2)

16,17,18

18 U.S.C. § 3231..........

. . . 9,10

18 U.S.C. § 3232..........

9,10

18 U.S.C. § 3237..........

10

FEDERAL RULES OF CRIMINAL PROCEDURE
Rule 18

9

Rule 29

6,7,11,12,19

CONSTITUTIONAL AUTHORITY
Article 3, Section 2, Clause 1

8

Article 3, Section 2, Clause 3

8

Fifth Amendment to the Constitution

19,20

Sixth Amendment to the Constitution

8,11

OTHER
Judiciary Act of 1789, Chapter 20, Section 9

vii

9

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari
issue to review the judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the
Sixth Circuit appears at Appendix A to the petition and is
unpublished.

1

.JURISDICTION
The date on which the United States Court of Appeals for
the Sixth Circuit decided my case was August 3, 2020.
No petition for rehearing was timely filed in my case.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
ARTICLE THREE, SECTION TWO, CLAUSE ONE
SEE APPENDIX D
ARTICLE THREE, SECTION TWO, CLAUSE THREE
The Trial of all Crimes, except in Cases of
Impeachment, shall be by Jury; and such
Trial shall be held in the State where the
said Crimes shall have been committed; but
when not committed within any State, the
Trial shall be at such Place or Places as
the Congress may by Law have directed.
FIFTHZAMENDMENT TO THE CONSTITUTION
No personsshallibe held to answer for a
capitaLior otherwise infamous crime, unless
on a presentment or indictment of a Grand
Jury, except in cases arising in the land or
naval forces,, or in Militia, when in actual
service in time of War or public danger; nor
shall any person be subject for the same
offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal
case to be a.witness against himself, nor
deprived of life, liberty, or property without
due process of law; nor shall private property
be taken for public use, without just
compensation.
SIXTH AMENDMENT TO THE CONSTITUTION
In all criminal prosecution, the accused shall
enjoy the right to a speedy and public trial,
by an impartial jury of the State and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him;
to have compulsory process for obtaining
witnesses in his favor, and to have the
Assistance of Counselfforuhisddefense.
18 U.S.C. § 115(c)(2)
SEE APPENDIX D
18 U.S.C. § 875(c)
SEE APPENDIX D
18 U.S.C. § 2261(b)
SEE APPENDIX D

3

18 U.S.C. § 2261A(2)
SEE APPENDIX D
18 U.S.C. § 2265
SEE APPENDIX D
18 U.S.C. § 2266(5)
SEE APPENDIX D
18 U.S.C. § 3161
SEE APPENDIX D
18 U.S.C. § 3162(a)(2)
SEE APPENDIX D
18 U.S.C. § 3231
The district courts of the United States
shall have original jurisdiction, exclusive
of the courts of the States, of all offenses
against the laws of the United States.
Nothing in this title shall be held to take­
away or impair the jurisdiction of the courts
of the several States under the laws thereof.
18 U.S.C. § 3232
Proceeding to be in district and division
in which offense committed, Rule 18.
18 U.S.C. § 3237
SEE APPENDIX D
FEDERAL RULES OF CRIMINAL PROCEDURE RULE118
Unless a statute or these rules permit
otherwise, the government must prosecute an
offense in a district where the offense was
committed. The court must set the place of
trial within the district with due regard
for the convenience of the defendant, any /
victim, and the witnesses and the prompt
administration of justice.
FEDERAL RULES OF CRIMINAL PROCEDURE RULE 29
SEE APPENDIX D
JUDICIARY ACT OF 1789, CHAPTER 20, SECTION 9
SEE APPENDIX D

4

STATEMENT OF THE CASE
On June 14, 2016 a criminal complaint was filed against Michael A.
Hagar for violating 18 U.S.C. § 875(c), transmitting in interstate/
jZ

-- -

'

foreign commerce a communication containing a threat to injure in
the Northern District of Ohio. Mr. Hagar was in custody of the
County Sheriff at the Multnomah County Detention Center in Portland,
Oregon, when the government obtained a Writ of Habeas Corpus ad
prosequendum on June 17, 2016. Mr. Hagar made his initial appearance
in the Northern District of Ohio on August 2, 2016 and was ordered
detained to the custody of the U.S. Marshals, after a detention
hearing, on August 5, 2016.
On August 24, 2016 a three (3) count Indictment was filed against
Michael Hagar. Count 1 charged Mr. Hagar with Cyberstalking in
violation of 18 U.S.C. §§ 2261A (2)(B) and 2261(b)(6). Counts 2 and
3 charged Mr. Hagar with Interstate Threatening Communication,
18 U.S.C. § 875(c). The Indictment alleged that Mr. Hagar's email
communication traveled to an Eaton Corporation server located in the
Northern District of Ohio. Count 1 alleged Mr. Hagar violated a
protection order as defined by 18 U.S.C. § 2266(5). On September 19,
2016 Mr. Hagar appeared before Judge Nugent for his arraignment
where a not guilty plea was entered on his behalf.
Between September 19, 2016 and September 11, 2018, Mr. Hagar signed
5 waivers to the Speedy Trial Act,and requested 3 Motions for
Continuance. Mr. Hagar's trial was set for September 17, 2018 but
the. government notified Mr. Hagar's attorney around September 6,
2018 that the government planned on issuing a Superseding Indictment.
On September 11, 2018, the government obtained a three (3) count

5

Superseding Indictment against Mr. Hagar. The Superseding Indictment
made chapges to the Original Indictment, in that, it removed the
allegation that Mr. Hagar's emails traveled to the server maintained
by Eaton Corporation in the Northern District of Ohio. The rest of
the Superseding Indictment remained essentially the same as the
Original Indictment.
On September 19, 2018, Mr. Hagar appeared before Judge Nugent for his
arraignment on the Superseding Indictment and a not guilty plea was
entered. This arraignment occurred exactly two years after the
arraignment on the Original Indictment. A status hearing was scheduled
"for November 27, 2018. At the status hearing the trial was scheduled
to begin on Febuary 26, 2019. On January 22, 2019, Mr. Hagar filed a
Motion to Dismiss, arguing that Mr. Hagar had been confined in excess
of seventy (70) days without being brought to trial. The Government
filed a Response in Opposition to the Defendant's Motion to Dismiss
on Febuary 12, 2019. The District Court never ruled on the Defendant's '
second Motion to Dismiss.
At trial Matthew Coberly testified that Mr. Hagar's emails were
forwarded to him by other individuals who were not in the State of
Ohio. In addition C.B., the Eaton employee who worked for Eaton in
the Northern District of Ohio, testified that she never received any
of the emails that ’were part of the alleged conduct. C.B. testimony
also established she was a step aunt to the victim of the
Cyberstalking charge.
The Defendant made Motions for Judgment of Acquittal pursuant to
Fed. R. Crim.

29. The defendant argued that similar to the second

Speedy Trial Motion to Dismiss, that the Northern District of Ohio

6

did not have jurisdiction as all the correspondences in this case
occurred outside of the Northern District of Ohio, and the case
should have been pursued by the government in Oregon. Mr. Hagar also
asked the Court to grant his Motion for Judgment of Acquittal based
upon improper service of the temporary protective order. Mr. Hagar
placed an objection to the jury instruction in Count 1, arguing that
i1

the jury not be instructed as to R.G. "and/or her family members"
and only be permitted to consider R.G. potential emotional distress,
as R.G.'s step-aunt does not qualify as an immediate family member
under the law.
The government oppossed the Defendant's Motion and the Court denied
all of the Defendant's Motions. The Jury returned a guilty verdict
on all three counts and the Defendant was sentenced on June 7, 2019
for five years for each count, to be served consecutively/fqraatbbtdl
of 15 years.
On Appeal Mr. Hagar raised the following issues among others not
relavent to this petition:
1. The Northern District of Ohio was not the proper venue for the
prosecution of Mr. Hagar.
2. The District Court erred when it failed to grant the Defendant's
second Motion to Dismiss.'
3. The District Court erred when it failed to determine that R.G.'s
Temporary Stalking Order was not lawfully issued and therefore invalid.
The Appeal's Court affirmed the District Court on all the issues
presented to the court.

7

REASONS FOR GRANTING THE PETITION

ARGUMENT AND AUTHORITIES REGARDING QUESTION 1
This court has repeatedly said that the Constitution is to be
considered in light of the Common Law. The court should consider if
the provisions of Article 3, Section 2, Clause 3, and the Sixth
Amendment, with respect to the location of the trial for criminal
offenses, were originally intended by the framers to create a
tribunal as part of the government structure, as it was in Common
Law. The relevant part of Article 3, Section 2, Clause 1, provides:
" The judicial Power shall extend to all Cases,

in Law and Equity,

arising under this Constitution, Laws of the United States, and
Treaties made, or which shall be made under their Authority;" Does
the provisions of Article 3, Section 2, Clause 3, and the Sixth
Amendment, related to the location of the trial limit "The judicial
Power,... extend[ed] to all Cases in Law ... arising under this
Constitution."
On page 12 of the Appeals Court decision, the court relied on United
States v Obak, 884 F.3d 934, 936-37, (9th Cir., 2018), deciding that
jurisdiction and venue are two distinct concepts. This opinion,
however, ignores the numerous cases that this court decided which
dealt with venue as jurisdiction.
In United States v Lombardo, 241 U.S. 73, (1916), this court affirmed
a District Court decision to sustain a demurrer as the court was
without jurisdiction of the subject-matter and there could not be a
prosecution because of the Sixth Amendment. Two prominent venue
cases this court decided, United States v Johnson, 328 U.S. 273,

8

(1944) and United States v Anderson, 328 U.S. 699, (1946) both dealt
with the issue of jurisdiction of the District Court. In Johnson the
issue was; "Appeal by the United States from a judgment of the
District Court of the United States for the District of Delaware
quashing, for want of jurisdiction, an indictment charging a violation
of the Federal Denture Act." And in Anderson the issue was; "Appeal
by the United States from an order of the District Court of the
United States for the Western District of Washington sustaining a
demurrer, on the ground of want of jurisdiction, to an indictment
for refusal to submit to induction into the armed forces of the
United States."
Today all the circuit courts have decided that a defendant's right
to proper venue is waivable and that the constitutional provisions
have no limitation to a court's jurisdiction.
ARGUMENT AND AUTHORITES REGARDING QUESTION 2
The relevant part of 18 U.S.C § 3231 provides: "The district courts
of the United States shall have original jurisdiction, exclusive of
the courts of the States, of all offenses against the laws of the
United States." 18 U.S.C. § 3232 provides: "Proceeding to be in
district and division in which offense committed, Rule 18." When the
two statutes are considered as complementary, it is a relative
reproduction of the relevant part of the Judiciary Act of 1789,
Chapter 20, Section 9. "That the district courts shall have :
exclusively of the courts of the several, States, cognizance of all
crimes and offenses that shall be cognizable under the authority of
the United States, committed within their respective districts,..."
18 U.S.C. § 3232 is an orphan statute, it is rarely mentioned and

9

mostly ignored. This court should consider whether the statute has
an important part to play with repect to the statutory judicial
structure of the courts. In other words, does 18 U.S.C. § 3232 limit
the jurisdiction of 18 U.S.C. § 3231 to the district where the ' .
offense was committed. This court's opinion about 18 U.S.C. § 3232
would benefit both the courts and the parties in future legal
proceedings."
ARGUMENT AND AUTHORITIES REGARDING QUESTION 3
In United States v Johnson, 323 U.S. 273, 276, (1944), this court
said; "It is significant that when Congress desires to give a choice
of trial, it does so by specific venue provisions, giving
jurisdiction to prosecute in any criminal court of the United States
through which a process of wrong doing moves." This court should
consider if the statute 18 U.S.C. § 3237 is a jurisdiction statute
with the effect of limiting the court's power to hear a case within
the territorial limits of the district court.
The first three question have a significant importance to the
nation. During the Colonial period, the transportation of the
colonist to England for trial was one of the complaints the colonist
raised to the King in the Declaration of Independence. Today with
the complexities of the technology used by society, opens up the
possibility of criminal prosecutions occuring in places where no
essential conduct elements occur. The limitation placed rqnthe
government relating to the location of the trial, is an issue that
affects every individual of this nation.
ARGUMENT AND AUTHORITIES REGARDING QUESTION 4
On page 11 of the'Appeals Court decision the court wrote: "Hagar did

10

not bring a pre-trial change of venue motion, and he did not try to
show 'good cause

for that failure. He merely mentioned venue in his

second speedy trial motion." The Appeals Court has ignored that the
motion to dismiss was both the Sixth Amendment and the Speedy Trial
Act. The relevant part of the Sixth Amendment provides: "In all
criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law,..." The Amendment includes
a speedy trial at the location where the offense was committed.
For the Appeals Court to conclud the Petitioner "did not try to
show 'good cause' for that failure" ignores the Petitioner's rights
protected by the Sixth Amendment; a speedy trial at the location
where the crime was committed. A ■motion: of iimproper_~venHe:-is^eithsr
dismissed without prejudice or transfered to the proper district and
a defendant could be said to have abandoned his claim to a speedy
trial under the Sixth Amendment and the Speedy Trial Act. This case
can provide the lower courts the proper way to proceed, when the
issue of a delay in the trial and proper location of the trial are
intertwined as it is in this situation.
ARGUMENT AND AUTHORITIES REGARDING QUESTION 5
As the court considers the issues of questions 1 thru 4, the court
should consider directing the lower courts to indulge a reasonable
presumption against waiver of the substantial right to proper venue
of the trial. On Page 12 of the Appeals Court decision, the court
relied on United States v Dandy 998 F.2d 1344, 1356-57 (6th Cir.,
1993), for the Petitioner's Rule 29 Motion for Judgment of

11

Acquittal, stating the Petitioner raised a specific issue of
jurisdiction and not venue. The case that Dandy relied on as the
authority for this opinion was United States v Rivera, 388 F.2d 545,
548, (2nd Cir., 1968). The relevant points of Rivera are included in
Dandy: "It is not unreasonable to expect the defendant to make some
reference to the venue point in order to save his objection for
appeal, ... where he does specify grounds for the motion and omits
mention of venue we must conclude that he cannot be considered to
have raised a question concerning the place of trial."
On page 12 of the Appeals Court decision they wrote: "In his Rule 29
motion for judgment of acquittal, Hagar argued that the district
court did not have jurisdiction over this case because the emails
and correspondence occurred outside the Northern District of Ohio
and suggested that the case could only be tried in Oregon." As
mentioned above, on Page 11 of the Appeals Court decision, the court
acknowledged the second speedy trial motion "mentioned venue."
This court should instruct the lower courts to consider the issue
of proper location of the trial is as important as the right to a
speedy trial, as this court did in Barker v Wingo, 407 U.S. 514,
(1972). The Petitioner did not waive;: his right to trial at the
location where the alleged crime was committed. The court should
indulge every reasonable presumtion against waiver. And the court
should not presume acquiescence in the loss of this fundamental
right.
ARGUMENT AND AUTHORITIES REGARDING QUESTION 6
In the Appellant Brief Page ID 40 the Petitioner wrote: "Matthew
Coberly, the global security director for Eaton Corporation,

12

testified that other individuals were forwarding him Mr. Hagar's
emails to be monitored in Beachwood, Ohio ... Although C.B. worked
in Ohio, she testified that she never received any emails from Mr.
Hagar in this case.” In the Appellee.,Brief ^ Page _ID . 20 the goveenfleht
wrote: "C.B. read the messages Hagar sent to her Eaton work email
account for the first time during preparation for her trial

:

testimony ..." On Page ID 45 during the venue argument the government
wrote: "C.B. routinely received and reviewed her Eaton email at her
office in Beachwood, Ohio ..." Then the government concluded:
"Because Hagar sent the threats via email from Oregon to C.B. in the
Northern District of Ohio venue was proper." The government
intentionally mislead the Appeals Court that C.B. received emails
sent by the Petitioner. Matthew Coberly's testimony proved C.B. did
not receive any emails from the Petitioner, as another individual,
in a state other than Ohio, received the emails and then forwarded
the emails to Matthew Colberly.
The Government used the inaccurate information in its brief for the
venue argument, and the Appeals Court relied on this inaccurate
information as part of its conclusion against the Petitioner. This
is fundamentally unfair to the Petitioner and also affects the
fairness, integrety and public reputation of the judicial proceedings.
(See United States v Olano, 507 U.S. 725, 733-37, (1993). This
erroneous decision affects the substantial rights of the Petitioner.
The fact that the government succeeded in misleading the Appeals
Court places the confidence of the public in the fairness of the
judicial process in doubt that anyone in the future will be treated
fairly if confronted with a similar situation.

13

ARGUMENT AND AUTHORITIES REGARDING QUESTION 7
The Appeals Court reliance on the "substantial contacts test" to
determine proper venue is in conflict with this court's opinion in
United States v Rodriquez-Moreno, 526 U.S. 275, 280, (1999), where
it articulated that "essential conduct elements" should be used in
the determination of proper venue. The Appeals Court used the
"substantial contacts test" to expand the government's ability to
claim proper venue of an offense. The two cases the Appeals Court
relied on have no relevance to the Petitioner's case. United States
v Houston, 683 F. Appx 434, 438, (6th Cir., 2017) is different to
the Petitioner's case as the emails that were part of the case did
not enter the Northern District of Ohio when the transmission
occurred. All the emails to Eaton Corporation in this case were
routed to an individual in a state other than Ohio. This individual
later transmitted the emails to the Northern District of Ohio. In
United States v Jefferies 692 F.3d 473, 483, (6th Cir., 2012),
Jefferies sent links to YouTube's website, for a video which
contained the threat, to individuals in the district where the
prosecution took place. Jefferies is different from the Petitioner's
case for the same reason the Houston case is, the transmission by
the Petitioner never entered the Northern District of Ohio.
The Appeals Court also relied on other factors of the "substantial
contacts test" none of which had any relationship to the essential
conduct elements of the offenses the Petitioner was charged with.
The Appeals Court conclusion that the individual in the Northern
District of Ohio is a family member to the victim of the Cyberstalking
charge ignored the statute 18 U.S.C. § 115(c)(2)(B), defining an

14

immediate family member as "any other person living in his household
and related to him by blood or marriage." As one person lives in
Oregon and the other person lives in Ohio

it is impossible for the

person in Ohio to meet the definition of "immediate family member."
The Appeals Court erroneous interpretation of the meaning of
"immediate family member," its erroneous use of the "substantial
contacts test," the invalid application of Jefferies and Houston,
plus the court's reliance on the inaccurate information provided by
the government has dramatically affected the Petitioner's right to
have his trial in the district where the offense was committed.
An example of the effect it has had on the Petitioner which will be
discussed later, is the issue related to the Speedy Trial Act. If '
the Petitioner had been prosecuted in the District of Oregon and the
district court did not rule on the two motions to dismiss for
violation of the Speedy Trial Act, the Ninth Circuit would have
considered the two motions preserved for appeal and it would not be
an issue for this court to consider.
The important issue of jurisdiction and proper venue in this case
has significant value to the lower courts and to future litigation
in criminal cases as well as the nation. The importance of this
issue was articulated in United States v Auernheimer, 748 F.3d 525,
541, (3rd Cir., 2014): "As we progress technologically, we must
remain mindfull that cybercrimes do n.ot happen in some metaphysical
location that justifies disregarding constitutional limits on venue.
People and computers still exist in identifiable places in the
physical world. When people commit crimes we have the ability and
obligation to ensure that they do not stand to account for those

15

crimes in forums in which they performed no

essential conduct

element' of the crime charged."
ARGUMENT AND AUTHORITIES REGARDING QUESTION 8
This court should consider the Petitioner's case as this question
has significant importance to future defendants and the public as
well, with respect to the Speedy Trial Act. In United States v Taylor
487 U.S. 326, 343-44, (1988), this court said: "Ordinarily, a trial
court is endowed with great discretion? to make decisions concerning
trial schedules and to respond to abuse and delay where appropriate.
The Speedy Trial Act, however confines that exercise of that
discretion more narrowly, mandating dismissal of the indictment upon
violation of precise time limits, and specifying criteria to consider
in deciding whether to barvreprosecution." The Appeals Court decision
that the Petitioner waived his speedy trial claim, is in conflict with
this court's opinion in Taylor. The Sixth Circuit is also in conflict
with the Ninth Circuit decision, United States v Hall 181 F.3d 1057,
1061, (9th Cir., 1999), where a defendant's pro se motion was
preserved for appeal when the district court never ruled on the
motion. In the Tenth Circuit, United States v Arnold, 113 F.3d 1146,
1149, (10th Cir., 1997): "Appellant's statements to the district
court prior to trial, in which he claimed a violation of the STA,
satisfy the motion requirement of 18 U.S.C. § 3162(a)(2). The
district court itself acknowledged the adequacy of appellant's
presentation when it stated in response, 'If there is a speedy trial
violation, then you've raised the issue, ... that will protect you
... If there was a trial and the prosecution got the conviction and
it violated the Speedy Trial Act ... we'd have to set it aside and

16

dismiss."
The Speedy Trial Act has only one waiver provision. The relevant
part of 18 U.S.C. § 3162(a)(2) provides: "Failure of the defendant
to move for a dismissal prior to trial or entry of a plea of guilty
or nolo contendere shall constitute a waiver of the right to
dismissal under this section."
The Sixth Circuit has now established a new waiver to the Speedy
Trial Act. Now district courts can simply ignore motions to dismiss
for violation of the Speedy Trial Act. This court can insure a
defendant's right to a speedy trial under the Speedy Trial Act by
following the doctrine of presuming against waiver of the fundamental
right to a speedy trial when a defendant has met his obligation
under the Speedy Trial Act by filing a timely motion to dismiss.
ARGUMENT AND AUTHORITIES REGARDING QUESTION 9
On Page 10 of the Appeals Court decision the court concluded that
the Petitioner's second speedy trial claim was "contradictory to
the argument ... made before the district court." The Appeals Court
relied on New Hampshire v Maine 532 U.S. 742, 749-51, (2001), to
refuse to consider the argument put before the Appeals Court. The
Appeals Court reliance on New Hampshire v Maine was erroneous as the
opinion does not support the Appeals Court conclusion. As the
district court never ruled on the Motion to Dismiss, it cannot be
said that the Petitioner succeeded in the position in the District
Court. The Government is not prejudiced by the argument in the
Appeals Court, and the Government never acquiesed to the Motion to
Dismiss. Because the Petitioner never succeeded in the Motion to
Dismiss at the District Court, the Petitioner's

17

argument in the

Appeals Court is not inconsistent and the Petitioner has posed'
question number 10 to address this issue for the court's consideration
with regard to question number 9.
The second reason the Appeals Court determined that the Petitioner's
second speedy trial motion should be rejected was: "Hagar forgets
that he himself requested a continuance after the government filed
the superseding indictment on September 11." This reasoning is in
direct conflict with this court's decision in Zedner v United States
547 U.S. 489 (2006), as the district court never made an end-ofjustice finding as required by 18 U.S.C. § 3161(h)(7)(A). This court
has the opportunity to address the issue to instruct the lower courts
on how to proceed in the future with cases that have similar
situations to the Petitioner.
ARGUMENT AND AUTHORITIES REGARDING QUESTION 10
The relevant part of 18 U.S.C. § 3162(a)(2) provides: "If a defendant
is not brought to trial within the time limit required by section
3161(c) as extended by section 3161(h), the information or
indictment shall be dismissed on motion of the defendant. The
defendant shall have the burden of proof of supporting such motion..."
In Zedner v United States, 547 U.S. 489, 507, (2006), this court
said: "In ruling on a defendant's motion to dismiss, the court must
tally the unexcluded days. This in turn requires identifying the
excluded days."
In the Petitioner's Motion to Dismiss, the Petitioner identified
that "November 27, 2016 marked the seventieth day after the
defendant's arraignment." Page ID 254. The Petitioner did not
articulate that 23 days that passed from the date of arraignment on

18

September 19, 2016, to the day he signed the first Speedy Trial Act
waiver on October 13, 2016. With the logic of the Government's
argument and the conclusion of the Appeals Court leads one to :'the
conclusion that this time does not count towards the speedy trial
motion. When the Petitioner filed the Motion to Dismiss, the period
of time from arraignment on the Superseding Indictment, September 19,
2018, to the day the motion was filed, January 22, 2019, was not
"extended by section 3161(h)." As the district court never made an on
the record "ends-of-justice" finding there was never an exclusion
under §3161(h)(7). See Zedner v United States, 547 U.S. at 507.
The District Court and the Appeals Court have denied the Petitioner
his Fifth Amendment right to procedural due process. And the Appeals
Court erred when it did not dismiss the Superseding Indictment or
remand it to the District Court for dismissal.
ARGUMENT AND AUTHORITIES REGARDING QUESTION 11
The Appeals Court erred .when it denied the Petitioner's Rule 29
Motion for Judgment of Acquittal for improper service of the
Temporary Protective Order, when it relied on the definition of a
Protective Order, 18 U.S.C. § 2266(5), instead of 18 U.S.C. § 2265,
Full Faith and Credit given to protective orders. It is well
established that a court cannot exercise jurisdiction over a person
unless that person is properly served according to due process.
Both the Petitioner and the Government agreed at trial that Mr. Hagar
did not receive the Petition for the Temporary Stalking Protective
Order. Oregon law requires the Petition, the Temporary Stalking
Protective Order and the Notice to Appear, to be served on the
Respondant. Pennoyer v Neff, 95 U.S. 714, 733, (1878): "To give ...

19

proceeding any validity ... the defendant ... must be brought within
its jurisdiction by service of process within the state or his
voluntary appearance." Griff v Griff, 327 U.S. 220, 228-29, (1946):
"A judgment obtained in violation of procedural due process is not
entitled to full faith and credit when sued upon in another
jurisdiction. (Citation omitted). Moreover due-process requires
that no other jurisdiction shall give effect, even as a matter of
comity, to a judgment elsewhere acquired without due process."
Under 18 U.S.C. § 2265 the Federal Government can exercise
jurisdiction to enforce a protective order if the court in Oregon
"... has jurisdiction over the parties and matter under the law of
such State." As it is agreed by both the Petitioner and the
Government that the Petition for the Temporay Stalking Protective
Order was not served at the time of service, the Oregon court never
obtained jurisdiction over the person. Because of the improper
service the Federal Government cannot exercise jurisdiction to
enforce the Temporary Protective Order.
This court should consider this issue as the Fifth Amendment Due
Process clause is a fundamental principle in this country. The court
can provide the proper procedure to all the courts of this nation
with respect to jurisdiction and enforcement of Protective Orders.

20

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: October 29, 2020

21

